<html>
<title> - MARKUP OF: H.R. 4406, ``SMALL BUSINESS DEVELOPMENT CENTERS IMPROVEMENT ACT OF 2019''; H.R. 4405, ``WOMEN'S BUSINESS CENTERS IMPROVEMENTS ACT OF 2019''; H.R. 4407, ``SCORE FOR SMALL BUSINESS ACT OF 2019''; H.R. 4387, ``TO ESTABLISH GROWTH ACCELERATOR FUND COMPETITION WITHIN THE SMALL BUSINESS ADMINISTRATION, AND FOR OTHER PURPOSES''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



MARKUP OF: H.R. 4406, ``SMALL BUSINESS DEVELOPMENT CENTERS IMPROVEMENT 
 ACT OF 2019''; H.R. 4405, ``WOMEN'S BUSINESS CENTERS IMPROVEMENTS ACT 
 OF 2019''; H.R. 4407, ``SCORE FOR SMALL BUSINESS ACT OF 2019''; H.R. 
  4387, ``TO ESTABLISH GROWTH ACCELERATOR FUND COMPETITION WITHIN THE 
        SMALL BUSINESS ADMINISTRATION, AND FOR OTHER PURPOSES''

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 25, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-046
             Available via the GPO Website: www.govinfo.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-756                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------            
            
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2
Additional Material for the Record:
    America's SBDC...............................................    12
    Association of Women's Business Centers......................    14
    Hon. Steve Chabot Statement..................................    15
    H.R. 4406, ``Small Business Development Centers Improvement 
      Act of 2019''..............................................    17
    H.R. 4405, ``Women's Business Centers Improvements Act of 
      2019''.....................................................    28
    H.R. 4407, ``SCORE for Small Business Act of 2019''..........    63
    H.R. 4387, ``Growth Accelerator Fund Competition''...........    81
    SCORE........................................................    87

 
MARKUP OF: H.R. 4406, ``SMALL BUSINESS DEVELOPMENT CENTERS IMPROVEMENT 
 ACT OF 2019''; H.R. 4405, ``WOMEN'S BUSINESS CENTERS IMPROVEMENTS ACT 
 OF 2019''; H.R. 4407, ``SCORE FOR SMALL BUSINESS ACT OF 2019''; H.R. 
  4387, ``TO ESTABLISH GROWTH ACCELERATOR FUND COMPETITION WITHIN THE 
        SMALL BUSINESS ADMINISTRATION, AND FOR OTHER PURPOSES''

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:35 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia M. Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Chu, Evans, Schneider, Espaillat, Delgado, 
Houlahan, Craig, Chabot, Radewagen, Balderson, Hern, Stauber, 
Burchett, and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The committee will 
please come to order.
    A quorum being present, this morning's meeting of the 
Committee on Small Business will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I am pleased to be here today with my good friend and 
colleague, Ranking Member Chabot, working on behalf of 
America's nearly 30 million small businesses.
    Small businesses are the cornerstone of our communities. 
When a Main Street business succeeds, we see real job creation 
and hard earned dollars get reinvested back into our 
neighborhoods, which makes the towns and communities better 
places to live, work, and raise a family.
    To help small businesses succeed, the SBA offers a robust 
entrepreneurial ecosystem that offers free and local counseling 
and training to small business owners across the country. 
Whether it is helping to create a business plan, navigate the 
procurement process, market a new product, or identify trade 
opportunities, the SBA, through its resource partners, offers a 
wide range of services. On average, this partnership helps more 
than a million small business owners every year. These programs 
have proven to be a great return on investment.
    For every dollar invested in Women's Business Centers 
(WBCs), $46 is returned to the economy. And for every Federal 
dollar spent on Small Business Development Centers (SBDCs), $2 
is returned to the U.S. Treasury, nearly $3 to the states, and 
approximately $48 in new capital is generated.
    Studies also show that entrepreneurs that receive 3 hours 
of counseling and training have higher 1-year survival rates 
than firms that receive less counseling. Simply put, the SBA 
entrepreneurial development programs offer real value to small 
business owners and taxpayers alike.
    Throughout this Congress, as the only committee dedicated 
to serve small businesses, we have been asking the small 
business community what support they need. Are these 
entrepreneurial development programs working effectively and 
what can the committee do to make improvements?
    We have learned that more can be done to expand their 
reach, particularly to rural and traditionally underserved 
areas. We also heard that we must support the rapid growth of 
women-owned firms and do more to promote innovation and create 
jobs.
    We have taken these recommendations to heart and crafted 
four bipartisan bills to strengthen the counseling and training 
programs at SBA. The four bills the committee is considering 
today are:
    H.R. 4406, the ``Small Business Development Centers 
Improvement Act of 2019,'' introduced by Mr. Golden and 
cosponsored by Vice Ranking Member Radewagen;
    H.R. 4405, the ``Women's Business Centers Improvements Act 
of 2019,'' introduced by Ms. Davids and cosponsored by Mr. 
Hagedorn;
    H.R. 4407, the ``SCORE for Small Business Act of 2019,'' 
introduced by Mr. Hern and cosponsored by Ms. Craig;
    H.R. 4387, legislation to establish the Growth Accelerator 
Fund Competition within the Small Business Administration, 
introduced by Mr. Espaillat and cosponsored by Mr. Balderson.
    I am proud to be lending my support for four bipartisan 
bills to improve SBA counseling programs and better serve 
America's innovators.
    As always, I want to thank the Ranking Member for 
collaborating on this package. I would also like to thank all 
our members, both republican and democrat, for all their 
efforts to improve SBA's Entrepreneurial Development Programs. 
Your work today proves just how special this committee is 
because we put the needs of small businesses above all else.
    Finally, I would like to thank our hardworking committee 
staff who worked diligently on these bills--Ellen Harrington, 
Delia Barr, and Joe Hart.
    I would now like to recognize our Ranking Member, Mr. 
Chabot, for his opening remarks.
    Mr. CHABOT. Thank you, Madam Chairwoman, and thank you for 
holding today's markup.
    In the interest of time, I am going to give a quick summary 
of my opening statement and then submit the full statement for 
the record to save time.
    The first three bills, H.R. 4406, 4405, and 4407, 
reauthorize flagship SBA programs, establish new program-
specific performance metrics and modify reporting requirements 
to approve efficiency, transparency, and accountability. These 
bills will also set authorization funding at responsible levels 
and timeframes to ensure future Congresses can improve and 
amend these programs as necessary.
    H.R. 4406, the ``Small Business Development Centers 
Improvement Act of 2019'' modernizes the SBDC program. It also 
includes measures to prevent duplication and overlap of 
entrepreneurial development assistance provided by the SBA.
    I want to thank Mr. Golden and Ms. Radewagen for their hard 
work on this legislation and working in a bipartisan manner.
    H.R. 4405, the ``Women's Business Centers Improvement Act 
of 2019'' raises the initial 5-year grant amount and indexes it 
for inflation. With the award increase comes a new governing 
body, the Women's Business Centers Association, which will 
facilitate accreditation and standardization of WBCs.
    I would like to thank Ms. Davids and Mr. Hagedorn for their 
leadership on this bill.
    H.R. 4407, the ``SCORE for Small Business Act of 2019'' 
establishes new compliance and oversight requirements to 
protect taxpayer dollars and sets new outcome-based performance 
goals to ensure the program meets the SBA standards and 
congressional intent.
    I want to thank Mr. Hern and Ms. Craig for their hard work 
on this bill.
    The fourth and final bill we are considering is H.R. 4387, 
which codifies the SBA's Growth Accelerator Fund Competition. I 
am proud to say that three Cincinnati organizations have won a 
$50,000 prize from this fund--the Brandery, First Batch, and 
Mortar. As an authorized program rather than an SBA 
administrator initiative, the competition will now be subject 
to greater congressional oversight, and that is a good thing.
    Thank you to Mr. Espaillat and Mr. Balderson for their 
leadership on this bill.
    Each bill has been informed by oversight findings, program 
feedback, and agency transparency. Thank you to our members on 
both sides of the aisle, again, for working in a bipartisan 
manner here. They have all taken leadership roles in sponsoring 
and cosponsoring these bills. We are very appreciative of that.
    I look forward to working with each of them as I know 
Chairwoman Velazquez does as well, and we are going to continue 
to pass in this Committee good legislation.
    I thank the Chairwoman for that and yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you, 
Mr. Chabot.
    Before we get into the individual bills, are there any 
members present who seek recognition for the purpose of making 
an opening statement?
    H.R. 4406
    Seeing none, we will move to consideration of H.R. 4406, 
the ``Small Business Development Centers Improvement Act,'' 
introduced by Mr. Golden and cosponsored by Ms. Radewagen, 
which modernizes and strengthens the SBDC network.
    I would now like to recognize the bills sponsor, the 
gentleman from Maine, Mr. Golden, for an opening statement.
    Mr. GOLDEN. Thank you, Madam Chair.
    Given that Small Business Development Centers (SBDCs) are 
the largest resource partner to the SBA, it is particularly 
important for this committee to keep the program up to date and 
performing at a high level for small businesses throughout the 
country. In Maine, the state's lead SBDC runs 11 outreach 
locations in my district in partnership with regional economic 
development entities enabling small businesses in Maine's rural 
communities to access valuable assistance.
    While the centers have had many successes, we have learned 
lessons about ways to improve the program in the years since it 
was reauthorized in 2004. That is why I am excited to lead this 
bill alongside Vice Ranking Member Radewagen to reauthorize the 
program.
    The ``Small Business Development Centers Improvement Act of 
2019'' will make a number of positive changes to improve 
oversight, better enable SBDCs to partner with other 
organizations, bolster the center accreditation process, and 
improve the voice of SBDCs in setting the program's direction. 
I am particularly glad that the bill will help broaden rural 
small business access to SBDC assistance by clarifying that 
centers are allowed to market and advertise their services. 
Rural access to SBA resources is a key issue for my district. 
This change is going to help address this need. Finally, the 
bill will authorize appropriations at the level of $175 million 
for fiscal years 2020 through 2023.
    I would like to thank the Chairwoman, the Ranking Member 
and their staff for forging a bipartisan path forward on the 
reauthorization of this important program. I would also like 
thank Vice Ranking Member Radewagen for co-leading this bill 
with me, as well as Mr. Hagedorn and Mr. Evans for joining as 
cosponsors.
    To conclude, I would ask unanimous consent that a letter of 
support for H.R. 4406 from America's SBDCs be entered into the 
record.
    I yield back.
    Chairwoman VELAZQUEZ. Without objection, so ordered.
    The gentleman yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 4406?
    Mrs. RADEWAGEN. Thank you, Madam Chairwoman.
    Chairwoman VELAZQUEZ. The gentlelady from American Samoa is 
now recognized for 5 minutes.
    Mrs. RADEWAGEN. Thank you, Madam Chairwoman and Ranking 
Member Chabot.
    I want to add my support for H.R. 4406, the ``Small 
Business Development Centers Improvement Act.'' Small Business 
Development Centers are the organizations that make sure our 
small businesses get help at the local level. SBDCs help 
entrepreneurs to grow, create jobs, and ultimately succeed.
    There are more than 1,000 SBDCs with locations in every 
state and territory, including in my home of American Samoa. 
H.R. 4406 will help more small businesses to get to that goal 
of economic success, which in turn benefits local communities 
and our nation's economy.
    Thank you to Mr. Golden for working with me on this 
legislation. I ask that we support this bill, and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now I recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chairwoman. I will be brief.
    I want to thank Chairwoman Velazquez, Mr. Golden, and Mrs. 
Radewagen for offering this bill. This legislation will 
streamline SBA and SBDC processes and reduce programmatic 
duplication to maximize the program's impact on America's small 
businesses.
    I urge my colleagues to support it and yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now I would like to offer my strong support to this 
bill. I want to thank both members, Mr. Golden and Mrs. 
Radewagen for working on a bipartisan bill to produce a bill 
that really addresses the needs and changes that are happening 
to the SBDCs.
    SBDCs are the largest resource partner of the SBA with 
nearly 1,000 centers throughout the country. Over the years, 
Congress has asked them to take on additional responsibilities 
ranging from cybersecurity to export promotion. Increasing the 
authorization level to $175 million would allow the program to 
grow and reach more American entrepreneurs.
    I urge my colleagues to support this legislation.
    If there is no further discussion, the committee will move 
to consideration of H.R. 4406.
    The clerk will report the title of the bill.
    The CLERK. H.R. 4406, the ``Small Business Development 
Centers''----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4406 is 
considered as read and open for amendment at any point.
    Are there any members who wish to offer an amendment?
    Seeing none, the question is now on H.R. 4406.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it, and H.R. 
4406 is agreed to.
    The question now occurs on reporting H.R. 4406 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    And H.R. 4406 is reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation, make other necessary technical 
corrections, and conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 4405
    Our second bill today is H.R. 4405, the ``Women's Business 
Centers Improvements Act of 2019,'' introduced by Ms. Davids 
and cosponsored by Mr. Hagedorn. The bill will modernize and 
strengthen the Women's Business Centers.
    I would now like to recognize the gentlelady from Kansas, 
Ms. Davids, the sponsor of the bill, for an opening statement 
on H.R. 4405.
    Ms. DAVIDS. Thank you, Chairwoman.
    I am glad the committee is considering this bill today, the 
``Women's Business Centers Improvements Act of 2019.'' Women's 
Business Centers provide a full range of counseling and 
training services for small businesses primarily owned by 
women. This bipartisan bill, which I introduced with 
Representative Hagedorn, will reauthorize Women's Business 
Centers for 4 years, increase the authorization level to $31.5 
million, and increase the cap on individual center grants for 
the first time since the program began in 1988.
    Increasing the cap on center grants will allow centers 
across the country to expand their services and outreach. A 
great example of the possibilities for WBCs once the caps on 
individual center grants are increased is the Kansas City 
Women's Business Center located in Fairway, Kansas, in the 
district that I now represent.
    The Kansas City Women's Business Center services women 
business owners in Kansas City on both sides of the state line 
and the entire state of Kansas. The Kansas City Women's 
Business Center already serves over 600 clients annually 
through business trainings, workshops, consoling, and access to 
capital programs. With increased funding, the Kansas City 
Women's Business Center can even better expand their counseling 
and outreach across a larger geographic region.
    In order to ensure continued excellence in the centers 
across the country, this legislation also establishes an 
accreditation program run by the Association of Women's 
Business Centers.
    At this time, I would like to enter into the record a 
letter of support for this legislation from Corinne Hodges, the 
CEO of the Association of Women's Business Centers.
    I look forward to providing our Women's Business Centers 
across the country with increased funding for the incredible 
work they do, and thank you for considering this legislation.
    Chairwoman VELAZQUEZ. Without objection, so ordered.
    Are there any other members who wish to be recognized for a 
statement of H.R. 4405?
    Mr. CHABOT. I will take it, Madam Chair.
    Mr. Hagedorn is not able to be here so I will speak very 
briefly.
    I want to thank the Chairmwoman. I want to also thank Ms. 
Davids and Mr. Hagedorn for their leadership on this bill. H.R. 
4405 will bring long overdue modernizations to the WBC program. 
I urge all my colleagues on both sides of the aisle to support 
it, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I would like to recognize myself in support of this 
legislation.
    The legislation that we are considering today will increase 
the authorization to $31.5 million and lift the cap on 
individual center grants to $300,000, allowing more established 
centers to expand their reach to more women entrepreneurs, 
particularly the socially and economically disadvantaged. Women 
are the fastest growing sector of entrepreneurs, and as more 
women establish themselves as business owners, these centers 
are critical in addressing the whole range of women's 
entrepreneurial needs. H.R. 4405 makes key changes to the 
program, enabling the WBCs to serve more of America's 12.3 
million women-owned small businesses.
    I want to thank Ms. Davids and Mr. Hagedorn for their 
collaboration, and I urge my colleagues to support the bill.
    If there is no further discussion, the committee will move 
on to consideration of H.R. 4405.
    The clerk will report the title of the bill.
    The CLERK. H.R. 4405, ``Women's''----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4405 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 4405.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it, and H.R. 
4405 is agreed to.
    The question now occurs on reporting H.R. 4405 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 4405 is reported to the House.
    Without objection, committee staff is authorized to correct 
punctuation, make other necessary technical corrections, and 
conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 4407
    The next bill for consideration today is H.R. 4407, the 
``SCORE for Small Business Act of 2019,'' introduced by Mr. 
Hern and cosponsored by Ms. Craig.
    This legislation will restore integrity to the SCORE 
program and ensure that the valuable business mentoring and 
training programs continue to serve America's small business 
owners.
    I would now like to recognize the gentleman from Oklahoma, 
Mr. Hern, for an opening statement.
    Mr. HERN. Thank you, Madam Chairwoman.
    As you all may know, SCORE is a nonprofit organization 
composed of active or retired business executives who act as 
mentors for entrepreneurs. SCORE volunteers provide face-to-
face counseling on a whole host of business issues. Business 
planning, budgeting, marketing, and financing, all at no charge 
to entrepreneurs.
    For over 50 years, SCORE has helped over 11 million 
entrepreneurs, and today, SCORE has over 300 chapters and more 
than 10,000 volunteers. This includes the Tulsa chapter, which 
is located in my district and currently has over 40 volunteers.
    My bill, H.R. 4407, would help to continue the success by 
reauthorizing the program and by adding new program safeguards, 
data standards, and reporting requirements. These provisions 
will further increase the program's integrity and help SCORE to 
assist even more small firms, which are all supported by SCORE. 
To emphasize this support, I ask for unanimous consent, Madam 
Chairwoman, to add their support letter to the record.
    Chairwoman VELAZQUEZ. Without objection, so ordered.
    Mr. HERN. Thank you.
    I would also like to thank the gentlelady from Minnesota, 
Ms. Craig. Thank you for being an original cosponsor on this 
important legislation, and the gentleman from Minnesota, Mr. 
Hagedorn, for cosponsoring this legislation as well.
    Thank you, Madam Chairwoman, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 4407?
    The gentlelady from Minnesota, Ms. Craig, is recognized for 
5 minutes.
    Ms. CRAIG. Thank you, Madam Chairwoman. And thank you, too, 
Congressman Hern, for your work on this bill.
    I am proud to cosponsor H.R. 4407, bipartisan legislation 
that will ensure the SCORE program can continue to provide 
important business and technical assistance to existing and 
emerging small business owners nationwide while ensuring the 
best use of taxpayer dollars.
    Madam Chairwoman, as we all know, small businesses are the 
economic engines of our community, from the delicious coffee at 
Amore Coffee in West St. Paul to the outdoor apparel at Storm 
Creek in Hastings. Each small business starts with an idea and 
it is the resources like a robust mentorship program that can 
help turn ideas into thriving businesses that sustain families, 
provide jobs, and bring a sense of community to our 
neighborhoods.
    SCORE volunteers are an important part of that 
entrepreneurial process and have helped launch tens of 
thousands of new businesses over the past 2 years.
    But as a recent audit of the Entrepreneurial Development 
Program found, SCORE could be readministered more efficiently 
and ultimately better serve rural areas, disadvantaged 
communities, and traditionally undeserved communities.
    Simply put, that is what this bill does. It incorporates 
many of the Inspector General's findings to strengthen SCORE 
and restores integrity, accounting, and performance to the 
program. By including these safeguards, the legislation would 
ensure SBA is a good agent of government funds and the 
counseling and training program is operating effectively and 
efficiently for the 30 million small business owners and 
aspiring entrepreneurs throughout the country.
    I know that small businesses in my district will benefit 
from an SBA and a SCORE program that runs efficiently and 
effectively, and so again, I thank the Chairwoman for advancing 
this bill today, and I urge my colleagues to support. I yield 
back.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back.
    I now recognize the Ranking Member for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    I would also like to thank Mr. Hern and Ms. Craig, both of 
whom have experience in organizational management, for their 
work on this legislation. I am confident that the provisions in 
this bill will improve the SBA's oversight and congressional 
oversight of the SCORE program and support reform efforts 
within the SCORE association.
    So I urge all my colleagues to support it and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Again, I would like to add I want to thank both of the 
members for working in a bipartisan way to produce legislation 
that is going to make a significant contribution to small 
businesses, and particularly corresponding to the IG's findings 
that were particularly troubling. This legislation takes strong 
steps to restore accounting, integrity, and performance to the 
program. I also would like to add that I am pleased that the 
new leadership at SCORE has taken steps to centralize the 
accounting system.
    And with that, I urge my colleagues to support this 
legislation.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 4407.
    The clerk will report the title of the bill.
    The CLERK. H.R. 4407, the ``SCORE for Small Business''----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4407 is 
considered as read, and as is customary for Committee practice, 
open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 4407.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it, and H.R. 
4407 is agreed to.
    The question now occurs on reporting H.R. 4407 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 4407 is reported to the House.
    Without objection, committee staff is authorized to correct 
punctuation, make other necessary technical corrections, and 
conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    H.R. 4387
    The next bill for consideration today is H.R. 4387, 
legislation to establish the Growth Accelerator Fund 
Competition within the SBA. This bipartisan legislation was 
authored by Mr. Espaillat and cosponsored by Mr. Balderson.
    I would now like to recognize the gentleman from New York, 
Mr. Espaillat, for an opening statement.
    Mr. ESPAILLAT. Thank you, Madam Chair Velazquez and Ranking 
Member Chabot for convening this markup session. I want to 
particularly thank the Chairwoman for helping move this piece 
of legislation.
    All roads lead to Ms. Velazquez's district. And I am not 
wrong.
    I want to thank my colleague, Congressman Balderson of Ohio 
for working with me on this bipartisan legislation.
    One of the most widely utilized tools the Small Business 
Administration employs to grow and support small businesses is 
the Growth Accelerator Fund Competition. This program has had 
the support of bipartisan administrations and has reached small 
businesses in over 40 states. Importantly, this creates a 
pipeline of talented entrepreneurs, especially women and 
minorities to grow and succeed.
    Last week, this committee had a hearing on SBA programs 
focused on spurring innovation and discussed the Small Business 
Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) programs. They are a proven ground for success. 
The SBIR and STTR programs work with small businesses in the 
high-demand fields of new and innovative technologies. 
According to the SBA, since this Growth Accelerator Fund 
Competition began in 2014, the first 50 awardees have led to 
directly almost 1,500 companies across the country. This means 
more investment in small businesses, a number of new 
opportunities leading to more jobs, and higher salaries.
    Again, let me thank Congresswoman Velazquez. Helping small 
businesses and prioritizing women-owned, veteran-owned, and 
socially and economically disadvantaged businesses has been a 
priority of mine and of this committee. I thank you, Chairwoman 
Velazquez and Ranking Member Chabot for your leadership in 
support of this legislation, and I urge my colleagues to 
support this bill. I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 4387?
    Mr. Balderson, you are recognized for 5 minutes.
    Mr. BALDERSON. Thank you very much, Madam Chair. And thank 
you for allowing my colleague, Mr. Espaillat, for bringing this 
up today. I am very grateful to work with his office and to 
work with him on this bipartisan piece of legislation.
    The SBA's Growth Accelerator Fund Competition was designed 
to support small business job creation by giving early stage 
entrepreneurs opportunities to immerse themselves in intense 
learning. Accelerators can provide founders of early stage 
companies with education, mentorship, financing, cohort base 
training, and technical assistance. In the SBA's Growth 
Accelerator Fund Competition Program, accelerators, incubators, 
co-working startup companies, and other entrepreneurial models 
compete for grants of $50,000 each. In 2019, the competition 
focused on accelerators that work with high tech entrepreneurs 
who are potential SBIR or STTR program applicants. Taken 
together, these programs aim to increase the number of small 
businesses in the high tech segment of our economy, as well as 
raise their presence in Federal research and development 
efforts. That is a win-win for both the private and public 
sectors by creating jobs, growing companies, and providing 
solutions to complex problems.
    I again want to thank my colleague, Congressman Espaillat, 
and Madam Chair, and also Ranking Member Chabot, and I would 
urge all of you to support this legislation. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you, 
sir.
    And now I recognize the Ranking Member.
    Mr. CHABOT. Thank you, Madam Chair.
    I want to thank you. I want to thank Mr. Espaillat and Mr. 
Balderson for offering this bill to codify the SBA's Growth 
Accelerator Fund Competition. The competition has proven 
successful over the past 5 years, and I expect that will 
continue for the next 4 fiscal years. I urge my colleagues to 
support this and, again, want to thank them for working 
together in a bipartisan manner. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you, 
Mr. Chabot.
    And now I recognize myself briefly.
    This is one of the most important and innovative programs 
under SBA. The SBA funds the Growth Accelerator Fund 
Competition for this nation's most innovative, diverse, and 
promising small business accelerators and incubators. The 
monetary prizes of $50,000 to each of the winners goes a long 
way toward supporting the development of accelerators and 
incubators in regions of the country where there are fewer 
sources of capital. It has a proven track record of providing 
investment in women and minority entrepreneurs. This bill will 
continue that commitment of investment in the next generation 
of American entrepreneurs, promote innovation, and increase 
jobs.
    I urge my colleagues to support the measure.
    If there is no further discussion, the Committee moves to 
consideration of H.R. 4387.
    The clerk will report the title of the bill.
    The CLERK. H.R. 4387, legislation to establish----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4387 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 4387.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it, and H.R. 
4387 is agreed to.
    The question now occurs on reporting H.R. 4387 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 4387 is reported to the House.
    Without objection, committee staff is authorized to correct 
punctuation, make other necessary technical corrections, and 
conforming changes.
    Without objection, members shall also be entitled to 2 days 
to file additional supplemental, dissenting, and minority 
views.
    I thank all of the members for their participation today 
and congratulate all of the members for the legislation that 
was sponsored.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
